<html>
<title> - THE DISRUPTER SERIES: 3D PRINTING</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                   THE DISRUPTER SERIES: 3D PRINTING

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2016

                               __________

                           Serial No. 114-120





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-179 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
































                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Yvette D. Clarke, a Representative in Congress from the 
  State of New York, opening statement...........................     4
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    59

                               Witnesses

Neal J. Orringer, Vice President, Alliances and Partnerships, 3D 
  Systems Corp...................................................     7
    Prepared statement...........................................    10
    Answers to submitted questions \1\
Alan Amling, Vice President of Marketing, Global Logistics, and 
  Distribution, United Parcel Service, Inc.......................    13
    Prepared statement...........................................    15
Ed Morris, Vice President and Director, America Makes-The 
  National Additive Manufacturing Innovation Institute, National 
  Center for Defense Manufacturing and Machining.................    18
    Prepared statement...........................................    20
    Answers to submitted questions...............................    68
Edward D. Herderick, Ph.D., Additive Technologies Leader, GE 
  Corporate Supply Chain and Operations..........................    34
    Prepared statement...........................................    37
    Answers to submitted questions...............................    77

                           Submitted Material

Statement of American Chemistry Council, February 26, 2016, 
  submitted by Mr. Burgess.......................................    61
Letter of February 26, 2016, from Stephen B. McDonald, Vice 
  President, Government Affairs, Specialty Equipment Market 
  Association, to Mr. Burgess and Ms. Schakowsky, submitted by 
  Mr. Burgess....................................................    64

----------
\1\ Mr. Orringer did not answer submitted questions for the 
  record by the time of printing.
 
                   THE DISRUPTER SERIES: 3D PRINTING

                              ----------                              


                       FRIDAY, FEBRUARY 26, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:59 a.m., in 
room 2123, Rayburn House Office Building, Hon. Michael C. 
Burgess (chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Harper, 
Guthrie, Bilirakis, Brooks, Schakowsky, Clarke, Kennedy, 
Cardenas, Welch, and Pallone (ex officio).
    Staff present: Mike Bloomquist, Deputy Staff Director; 
Leighton Brown, Deputy Press Secretary; Rebecca Card, Assistant 
Press Secretary; James Decker, Policy Coordinator, Commerce, 
Manufacturing, and Trade; Andy Duberstein, Press Secretary; 
Graham Dufault, Counsel, Commerce, Manufacturing, and Trade; 
Melissa Froelich, Counsel, Commerce, Manufacturing, and Trade; 
Paul Nagle, Chief Counsel, Commerce, Manufacturing, and Trade; 
Tim Pataki, Professional Staff Member; Olivia Trusty, 
Professional Staff Member, Commerce, Manufacturing, and Trade; 
Dylan Vorbach, Legislative Clerk; Michelle Ash, Democratic 
Chief Counsel, Commerce, Manufacturing, and Trade; Christine 
Brennan, Democratic Press Secretary; Lisa Goldman, Democratic 
Counsel, Commerce, Manufacturing, and Trade; Caroline Paris-
Behr, Democratic Policy Analyst; Timothy Robinson, Democratic 
Chief Counsel; and Diana Rudd, Democratic Legal Fellow.
    Mr. Burgess. The Subcommittee on Commerce, Manufacturing, 
and Trade will now come to order. I will recognize myself for 5 
minutes for the purpose of an opening statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Today we are continuing our Disrupter Series and focusing 
today on additive manufacturing, also what is known as 3D 
printing. Additive manufacturing has disrupted the industries 
it has impacted, not just by challenging incumbents, but also 
by lowering cost and increasing efficiency.
    Harnessed properly, this is another example of how 
innovation is creating jobs and opportunity and helping set the 
stage for a revival of manufacturing in the United States.
    Additive manufacturing has been around since the 1980s with 
the patent for stereolithography issued to Charles Hull, the 
founder of one of the companies testifying today, 3D Systems. 
About 30 years later, surveys show that about two-thirds of 
industrial manufacturers say they are implementing additive 
manufacturing either by experimenting or using it to create 
prototypes of finished products, and the 3D printing industry 
is expected to grow from the $6 billion it is today to over $20 
billion in a mere 5 years' time.
    3D printing has already woven its way into our manufactured 
products in subtle ways. For example, some of the commercial 
airliners we all fly will soon use 3D-printed parts in their 
engines, and GE will testify about that today. Many of the cars 
on the road have had their development sped up dramatically 
thanks to 3D-printed prototypes.
    Additive manufacturing has plugged itself into a growing 
proportion of the manufacturing supply chain because the 
designs are flexible and they are a naturally better solution 
for certain tasks.
    But 3D printing is also making a splash in less subtle 
ways. People around the globe are benefitting from prosthetic 
limbs, which were otherwise unaffordable. Surgeons can create 
accurate surgical guides which reduce errors and as a result 
will save lives. Scientists have begun experimentally printing 
human cell structures using a person's DNA. That resulted as a 
logical use of life's own building blocks, but certainly 
potentially revolutionary for patients.
    In my district, 3D printing is enabling businesses to get 
the job done more efficiently. I have a constituent back home, 
his name is Adrian Murray, he runs a hotrod modification shop 
called Painless Performance, and he provides customers with 
custom wiring harnesses for their classic cars. These parts are 
no longer manufactured on an assembly line, but using a 3D 
printing prototype offered by the Specialty Equipment 
Manufacturers Association, Painless Performance is able to 
speed up the development process. And I think we are going to 
show a video clip of that, if the technology doesn't fail us, 
and I will continue talking while that runs.
    [Video shown.]
    As the subcommittee with jurisdiction over vehicle safety, 
we are especially interestedin ways that vehicle suppliers and 
manufacturers are using polymers and plastics to enhance 
safety.
    Can we just turn the sound down on that, because it is 
mostly the visual that we want.
    Carbon fiber-reinforced plastics have 12 times the energy 
absorption capabilities, while adding half of the weight of 
some comparable metal parts. Additive manufacturing is helping 
automakers and part suppliers integrate these innovative 
materials into cars, which is making a safer and improving fuel 
efficiency. As 3D printers become more affordable, the universe 
of people able to print 3D-printed objects on their own 
expands.
    One of the things in research for this hearing, my staff 
found an article for me, it is actually from Australia, that it 
talks about Ralph Mobbs, a neurosurgeon from Prince of Wales 
Hospital in Sydney. And in resecting a tumor in a patient, he 
had to replace the top two vertebras, pretty difficult 
operation, and, obviously, without the proper type of 
prosthetic it would have been impossible.
    So the surgeon worked with an Australian medical device 
manufacturer to craft replicas of the patient's top two 
vertebra out of titanium. I just want to read you a quote from 
the surgeon--and mind you, he is from Australia, so he talks 
funny, I am sure.
    ``To be able to get the printed implant that you know will 
fit perfectly because you have already done the operation on a 
model, it was a pure delight. It was as if someone had switched 
on a light and said, 'Crikey, if this isn't the future, well, I 
don't know what is.'"
    So, Dr. Mobbs, I agree with you: If this isn't the future, 
I don't know what is.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Today we continue the Disrupter Series with additive 
manufacturing, or 3-D printing. Additive manufacturing has 
disrupted the industries it has impacted not just by 
challenging incumbents, but also by lowering costs and 
increasing efficiency. Harnessed properly this is another 
example of how innovation is creating jobs, opportunity and a 
revival in manufacturing in the U.S.
    Additive manufacturing has been around since the 1980s, 
with the patent for stereolithography issued to Charles Hull-
the founder of one the companies testifying today, 3D Systems.
    About 30 years later, surveys show that about two-thirds of 
industrial manufacturers say they are implementing additive 
manufacturing, either by experimenting or using it to create 
prototypes or finished products. And the 3D printing industry 
is expected to continue growing from about $6 billion today to 
about $21 billion by 2020.
    3D printing has already woven its way into our manufactured 
products in subtle ways. For example, some of the commercial 
airliners we fly will soon use 3-D printed parts in their 
engines, as GE will testify. And many of the cars on the road 
have had their development sped up dramatically thanks to 3D 
printed prototypes.
    Additive manufacturing has thus plugged itself into a 
growing proportion of manufacturing supply chains because the 
designs are flexible and are naturally a better solution for 
certain tasks.
    But 3D printing is also making a splash in less subtle 
ways. People around the globe are benefiting from prosthetic 
limbs that were otherwise unaffordable. Surgeons can create 
accurate surgical guides, which reduce errors and as a result 
save lives.
    Scientists have begun experimentally printing human cell 
structures using a person's DNA-a result that is a logical use 
of life's building blocks, but potentially revolutionary for 
patients in need of transplants.
    In my district, 3D printing is enabling businesses to get 
the job done more efficiently. My constituent Adrian Murray's 
auto supply company, Painless Performance, provides customers 
with custom wiring harnesses for classic cars. These parts no 
longer have an assembly line, but by using the 3D printing 
prototype service offered by the Specialty Equipment 
Manufacturers Association (or SEMA) Garage, Painless 
Performance is able to speed up the development process.
    If you turn your attention to the monitors, you can see one 
of these products being made.
    As the subcommittee with jurisdiction over vehicle safety, 
we are especially interested in ways vehicle suppliers and 
manufacturers are using polymers and plastics to enhance 
safety. Carbon fiber reinforced plastics have 12 times the 
energy absorption capabilities while adding half of the weight 
of some comparable metal parts. Additive manufacturing is 
helping automakers and parts suppliers integrate these 
innovative materials into cars, which is making us safer while 
improving fuel efficiency.
    Of course, as printers become more affordable, the universe 
of people able to 3D print objects on their own expands.
    Many have raised the caution that this in turn could 
facilitate an end user to print firearms that circumvent 
Federal law or to use for an illegal purpose. Policymakers 
rightly take these concerns seriously and they will continue to 
be debated in Congress and across the country.
    The task at hand this morning is to introduce this 
subcommittee to the technologies behind additive manufacturing, 
its beneficial uses, what it means for innovation and job 
creation, and the friction it has encountered either from 
market forces or the Government.
    I thank the witnesses for educating us on this exciting 
technology and look forward to a thoughtful discussion.

    Mr. Burgess. I will now turn to Ms. Clarke from New York, 
ranking member of the subcommittee, for an opening statement.

OPENING STATEMENT OF HON. YVETTE D. CLARKE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Clarke. Good morning, Chairman Burgess and members of 
this morning's panel. Mr. Chairman, thank you for holding this 
hearing on 3D printing.
    For many of us, when we think of 3D printing, we think of 
plastic toys, key chains, and other trinkets, but 3D printing 
is about more than just the novelty of printing in plastic. 
This technology has many applications that we are only starting 
to explore.
    3D printers enable small-scale personalized production that 
gives consumers more choice and convenience. Consumers can 
order affordable custom-printed items, from cell phone cases to 
shoes and prescription eyewear.
    3D printers help product designers by allowing them to 
print prototypes more easily. Manufacturers can print 
replacement parts on demand. Prosthetics can make customized to 
make people who have lost a limb more comfortable. And 
recently, a 3D-printed vertebra, as our chairman has indicated, 
was implanted into a child with bone cancer.
    While today we are mostly printing in plastic and metal, 3D 
bioprinting opens a whole new world of possibilities in the 
medical field. Doctors may one day be able to grow needed 
organs for transplants or skin for prosthetic limbs or skin 
grafts.
    The future potential of this technology is one more reason 
why we need to increase our Federal investments in research and 
innovation.
    But as we think about the tremendous potential of 3D 
printing, we also need to consider possible risks and 
challenges. Here are some of the questions on my mind. How 
should we protect consumers when the consumer doesn't buy the 
product but rather the blueprint to make a product? How does 3D 
printing work with our existing laws on intellectual property? 
And what should people be able to make with 3D printers?
    I am especially concerned about 3D-printed weapons. Think 
about this: If someone has access to a 3D printer, all they 
need is the right blueprint. When the gun buyer is now the gun 
manufacturer, who does the background check? Who is responsible 
for keeping weapons out of the wrong hands? This isn't 
theoretical. The first 3D-printed gun was made 3 years ago.
    An all-plastic gun would be a violation of the Undetectable 
Firearms Act, but a law banning the manufacture of nonmetal 
guns only goes far when a plastic firearm can be made at home. 
And we may not be far from seeing metal guns being printed at 
home.
    Those who design blueprints for 3D printing and provide 3D 
printing capability must take responsibility to ensure that 
their business does not endanger other lives, and we in 
Congress need to make sure that our laws are up to date with 
today's technology.
    I look forward to hearing from our witnesses on the 
potential for 3D printing as well as your perspectives on how 
we deal with some of these challenges.
    Having said that, Mr. Chairman, I yield back.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back.
    The Chair would inquire of Mr. Pallone if he seeks time for 
an opening statement.
    Mr. Pallone. I do.
    Mr. Burgess. Recognized for 5 minutes for an opening 
statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    3D printers and the products they produce have the 
potential to transform and improve our lives. It is remarkable 
to think about what is already possible in this space, not to 
mention the possibilities for the future.
    Today, 3D printers are driving innovation in American 
factories, schools, hospitals, and homes. All around the 
country, health researchers are using 3D printers to develop 
new approaches to tissue transplant and regeneration. The level 
of customization permitted by 3D printing can allow 
prosthetics, hearing aids, and dental aligners to be made more 
comfortable, effective, and affordable.
    And now think about the potential for 3D printers to 
transform the way cutting-edge medical care is distributed. The 
latest and greatest discoveries would no longer be limited to 
those who have access to a select group of medical facilities. 
Instead, 3D printers could help to easily reproduce new 
treatments and therapies at any hospital throughout the country 
and the world.
    3D printing technology also has the potential to help build 
a more dynamic and inclusive workforce. At Rutgers University 
in my district, innovators created 3D-printed braille maps that 
make a local vocational training center easier to navigate for 
the visually impaired.
    Additionally, 3D printers allow people to create prototypes 
of new designs or inventions at a lower cost than traditional 
production techniques, thus helping underrepresented 
communities gain access to entrepreneurship.
    The development of 3D printing technology is a great 
example of how effective public-private partnerships can be. 
This administration and members such as Representative Kennedy 
have worked to strengthen Federal support for 21st century 
manufacturing technology such as 3D printing, and I look 
forward to hearing how the National Network for Manufacturing 
Innovation is working with companies, such as those represented 
by our witnesses today, to promote American innovation and 
safeguard the future of domestic manufacturing.
    And as with all new technologies, the further adoption of 
3D printing, especially its home use, raises safety and 
regulatory questions. Many of us have seen the media coverage 
about 3D-printed guns. While the ability to make guns at home 
may not be new, the ability to make them easily and cheaply 
poses new safety risks, and increasing the number of guns made 
outside of the registration process could increase the number 
of guns in the hands of criminals.
    In addition, questions have been raised about how to 
protect intellectual property as 3D printers proliferate. There 
have been concerns about some types of inks used in 3D printing 
containing BPA, a chemical that the FDA has banned from use in 
baby bottles and children's drinking cups.
    3D printing offers enormous possibilities for innovation in 
manufacturing, increased opportunities for entrepreneurship, 
and convenience and customization that was not available 
before. So it is exciting to think about the possibilities, and 
I am confident these innovations can be coupled with consumer 
protections so that they really can improve people's lives.
    Did you want some time?
    Mr. Kennedy. I will take 30 seconds.
    Mr. Pallone. Yes. I will yield you the rest of my time.
    Mr. Kennedy. Thank you. Thank you very much, Mr. Pallone. 
And I want to thank the chairman for calling this hearing.
    I was really excited just to get a chance to listen to all 
of you and understand a little bit about how the national 
institutes are going building out the progress. I have been 
bragging about you like crazy everywhere, so hopefully it is 
good. And very much look forward to understanding and getting 
some lessons learned from you about what is working well, where 
we can improve as other institutes are stood up around the 
country, how we can try to learn from your success.
    Most importantly, trying to understand how Government can 
be a positive source for innovation and trying to lower some of 
the barriers to entry and the risks that local innovators take 
and small businesses take and trying to make sure we can spur 
the next generation of manufacturing here in the United States, 
what that also means for the workforce, integration with our 
workforce, workforce training, all the way up the supply chain.
    So I am grateful for the opportunity to be here, grateful 
that all of you are willing to come testify, and look forward 
to learning from you over the course of the rest of the 
morning.
    Thank you. I yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    Seeing no other member seeking time, we will conclude with 
member opening statements. And the Chair would remind members 
that, pursuant to committee rules, all members' opening 
statements will be made part of the record.
    We do want to thank our witnesses for being here today, 
taking time out of your day to testify before the subcommittee. 
Today's witnesses will have the opportunity to give opening 
statements, and then we will follow with questions from 
members.
    Our witness panel for today's hearing includes Mr. Neal 
Orringer, Vice President for Alliances and Partnerships, 3D 
Systems; Mr. Alan Amling, Vice President for Global Logistics 
and Distribution Marketing with UPS; Mr. Ed Morris, Director of 
National Additive Manufacturing Innovation at the National 
Center for Defense Manufacturing and Machining; and Dr. 
Herderick, the Additive Technologies Leader for Corporate 
Supply Chain and Operations within General Electric.
    So we appreciate all of you being here today. We will begin 
the panel with Mr. Orringer.
    And, Mr. Orringer, you are recognized for 5 minutes for an 
opening statement, please.

 STATEMENTS OF NEAL J. ORRINGER, VICE PRESIDENT, ALLIANCES AND 
PARTNERSHIPS, 3D SYSTEMS CORP.; ALAN AMLING, VICE PRESIDENT OF 
 MARKETING, GLOBAL LOGISTICS, AND DISTRIBUTION, UNITED PARCEL 
SERVICE, INC.; ED MORRIS, VICE PRESIDENT AND DIRECTOR, AMERICA 
MAKES-THE NATIONAL ADDITIVE MANUFACTURING INNOVATION INSTITUTE, 
 NATIONAL CENTER FOR DEFENSE MANUFACTURING AND MACHINING; AND 
EDWARD D. HERDERICK, PH.D., ADDITIVE TECHNOLOGIES LEADER, G.E. 
             CORPORATE SUPPLY CHAIN AND OPERATIONS

                 STATEMENT OF NEAL J. ORRINGER

    Mr. Orringer. Thank you. Thank you, Mr. Chairman, 
Congresswoman Clarke, and members of the distinguished 
subcommittee. Thank you for the invitation to address you 
today.
    I am honored to discuss a critically important topic, how 
additive manufacturing is revolutionizing the delivery of 
health care. In 1983----
    Mr. Burgess. Mr. Orringer, is the green light on in your 
microphone?
    Mr. Orringer. It is.
    Mr. Burgess. You may need to pull it a little closer.
    Again, I would stress that even though this is the premier 
technology committee in the United States Congress, we have 
pretty low-tech equipment. But please continue.
    Mr. Orringer. How is this? OK.
    In 1983, my company's founder, Chuck Hull, invented 3D 
printing. He was applying a process called stereolithography to 
physically replicate an eyecup that was designed and digitally 
drawn on a computer. His patent was granted in 1986, and the 
business took off from there. More than 30 years later, the 
industry is in full throttle.
    For its own part, 3D Systems is the world leader in 
additive manufacturing and the only major U.S.-based 3D 
printing company. From the offset, we have catalyzed continuous 
innovation in health care. So I guess I would amend Dr. Mobbs' 
comments and say the future is now.
    In the early 1990s, we revolutionized the manufacturing of 
hearing aids, rapidly customizing the form and fit to an 
individual's ear with unparalleled precision, helping build 
wireless devices with comfortable biocompatible materials. And 
today, 99.5 percent of all hearing aids are 3D printed 
worldwide.
    A decade later, we helped two graduate students from 
Stanford University discover a better way to straighten teeth. 
With our technology, they manufactured what became Invisalign, 
which are clear orthodontic aligners, as has been discussed. 
Today, Align is a world leader in mass customization, accuracy, 
and comfort, producing over 20 million individual aligners in 
the last 12 months alone.
    So 3D printing continues to advance significant 
breakthroughs in the field of precision medicine. Now, that is 
a movement that has been championed by the FDA that tailors 
medical treatments intensively to individual characteristics of 
each patient. So as part of this movement, together with 
genomics, regenerative medicine, computational biology, and 
medical imaging, 3D printing is once again revolutionizing the 
practice of saving and improving lives.
    Now, today I would like to concentrate on three areas: 
virtual surgical planning, fabrication of advanced implants and 
devices, and new modeling processes. Virtual surgical planning 
is what I would start with first.
    VSP empowers surgeons with unparalleled precision in the 
most complex procedures. It significantly reduces the time in 
the surgical theater and saves lives. Our experts interact 
directly with doctors, receiving data from CT scans, and then 
design and build surgical guides that are placed on a patient 
to support a particular procedure.
    [Video shown.]
    Mr. Orringer. We are showing a video right now in the 
hearing room to highlight the case of Blessing Makwera. He 
sustained a land mine injury to his upper and lower jaws, 
tongue, lip, and teeth. Blessing's spirit and courage are truly 
inspirational, and today he can smile.
    Now, 3D Systems worked with Joel Berger, an oral and 
maxillofacial surgeon at Sharp Memorial Hospital in San Diego, 
California, to rebuild Blessing's face and give him new teeth. 
The fibula free flap operation involves taking bone, tissue, 
and vessels from the fibula and reconfiguring them to form an 
upper and lower jaw connected to blood vessels in the neck. We 
used CT scans to extract 3D anatomical information needed to 
visualize the surgery in 3D and map out the surgical plan.
    Blessing required a number of 3D tools, including a 
mandible and maxilla cutting tools of the lower and upper jaw 
to guide the surgeon's saw blades in the operating room. It is 
an inspirational story among tens of thousands over the last 
several years.
    Models and simulation. Aside from the surgical guides, 
Blessing's surgeons also used 3D printing models for reference 
during the operation. These models show surgeons what is hidden 
beneath layers of soft tissue, and it gave surgeons hands-on 
experience with Blessing's jaw and anatomy long before the 
surgery.
    Finally, I want to talk not about customized tools but 
about how 3D printing is transforming wholesale production of 
medical devices and implants. I brought a titanium component of 
a hip transplant, which we 3D printed. Rather than go through 
the onerous process of building a cast mold, shaping and 
cooling, and then coating a single part, metal 3D printing 
allows us to consolidate the supply chain, saving time and 
resources. It also allows us to add functions to the part with 
designs that maximize bone cohesion, structures that simply 
cannot be built via any other manufacturing process.
    So doctors and device manufacturers can send us data to 
engineer 3D models, and then we use direct metal printing to 
build dozens of these titanium cups in a single build process. 
We have been working with U.S. and European regulators to 
ensure appropriate quality assurance in the process for an 
array of implants and devices.
    In all these areas, we have a strong and constructive 
partner in the Federal Government. As we work to receive 
appropriate qualification for these products, it is essential 
we maintain an appropriate balance between promoting innovation 
and ensuring the safe delivery of care to patients.
    As 3D printing improves the economics and the production of 
critical healthcare tools, I am hopeful we might someday see 
these efficiencies actually translate to lower costs for the 
patient. Integrating these novel processes and tools will 
require a greater understanding not only by the regulators, but 
the health insurance industry as well.
    Now, in due time, perhaps it will be commonplace for these 
tools to be integrated into conventional building processes. It 
is time for 3D printing to be appreciated as an important 
instrument for mainstream quality care, and I look forward to 
discussing this and other issues with the committee today. 
Thank you.
    [The prepared statement of Mr. Orringer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
  
    
    Mr. Burgess. The Chair thanks the gentleman.
    The Chair recognizes Mr. Amling for 5 minutes to summarize 
your opening statement, please.

                    STATEMENT OF ALAN AMLING

    Mr. Amling. Good morning, Chairman Burgess, Ranking Member 
Schakowsky, members and staff of the committee, fellow 
witnesses, and attendees. My name is Alan Amling, and I am the 
Vice President of Marketing for UPS Global Logistics and 
Distribution. And during my 23-year tenure, I have helped our 
business develop and grow across all aspects of the e-economy 
and to launch innovative new solutions like carbon-neutral 
shipping.
    While you are likely familiar with UPS' fleet of more than 
100,000 brown trucks and our 425,000 employees globally, you 
may not know much about our supply chain business. More than 
100 years ago, UPS started as a bike messenger in Seattle. In 
2016, we operate one of the largest airlines in the world and 
offer global supply chain services, including ocean and air 
freight, ground freight, brokerage, and contract logistics, in 
addition to our more familiar brown package services.
    Our global logistics network, made more intelligent and 
efficient, has the potential to radically reshape and reinvent 
economies. That is why we are interested in 3D printing, which 
could disrupt traditional manufacturing the way that e-commerce 
has disrupted traditional retail. Certainly, as this new 
technology becomes more widely available, there will be bumps 
in the road and hurdles to overcome, but the power of 3D 
printing cannot be overstated. It is disruptive not just 
because it is new, but because it helps small businesses and 
entrepreneurs do what they already need to do today, only 
better and less expensively.
    Therefore, as 3D printing revolutionizes manufacturing, it 
will also affect our business of supply chains and eventually 
product pricing and the end consumer experience. 3D printing 
effectively means that businesses no longer will face minimum 
quantities. They will be able to order what they need when they 
need it. Upfront tooling cost, which is a big expense for 
businesses both large and small, makes 3D printing ideal for 
small batch production runs. And there is no tax on complexity. 
And what I mean by that is there is no corresponding increase 
in cost for a more complex design like this.
    The disruptive nature of 3D printing, therefore, will 
create opportunities, but it will also require adjustments. As 
it becomes possible to send product design instructions via the 
Internet and print products locally, small businesses and 
entrepreneurs will be able to move from the idea phase to the 
production phase more quickly and cost effectively. Instead of 
delivering a product from a warehouse, products could be 
delivered from a 3D printing service offered at a retail 
outlet, such as a UPS store or right to your door.
    Disruptive technology like 3D printing stands to help our 
customers do more with a lower environmental impact, all while 
benefitting consumers like you and me. It has the potential to 
increase profit margins within the supply chain by reducing 
cost, and that is good news for small businesses and 
entrepreneurs especially.
    Additionally, it is important to understand that disruption 
will happen. There is almost no stopping the spread of 
technology and innovation. So we are either in the game or 
watching it, and I know what side of the equation UPS wants to 
be on.
    And to that end, in anticipation of 3D printing's impact, 
UPS has already started putting 3D printers into UPS store 
locations. Our initial customer response was so positive that 
we have since expanded to more than 60 stores, with plans for 
continued growth.
    Likewise, through our internal venture capital arm, we 
invested in a 3D printing manufacturer named CloudDDM and put 
their production facilities in the heart of our Louisville 
supply chain campus, just minutes from our global air hub. The 
operation has been up and running for a year and allows 
companies to order parts and prototypes to be printed late into 
the evening and have them delivered anywhere in the U.S. by the 
next morning. In doing so, UPS has helped to create a model 
that actually increases package demand and differentiates the 
company from other carriers. Now that is groundbreaking stuff.
    Today, UPS is learning and adapting to new technologies, 
something we have done many times over our more than 100 years 
of operation. As proven over and over throughout history, those 
who embrace innovation and change early and often are the most 
richly rewarded, and disruptive technology, like 3D printing, 
has that incredible potential.
    I commend the committee for their interest in understanding 
more about 3D printing and welcome this opportunity to share 
what we have learned up to this time. Thank you for your time 
today, and I look forward to answering questions.
    [The prepared statement of Mr. Amling follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
    
    Mr. Burgess. The Chair thanks the gentleman.
    Mr. Morris, you are recognized for 5 minutes to summarize 
your opening statement, please.

                     STATEMENT OF ED MORRIS

    Mr. Morris. Good morning, Chairman Burgess, Vice Chairman 
Lance, Ranking Member Schakowsky, and members and staff of the 
committee. My name is Ed Morris. I am the Vice President and 
Director for America Makes, the National Additive Manufacturing 
Innovation Institute, and we are consciously dual branded as 
America Makes, the National Manufacturing Innovation Institute.
    The maker community wants to deal with America Makes. We 
are happy to deal with industry. In the maker community you get 
a little leery of institutes, too formal, too official, so that 
is the reason for the dual branding.
    We are operated by the National Center for Defense 
Manufacturing and Machining, a not-for-profit 501(c)(3) company 
that has been in existence for over 14 years solving technical, 
manufacturing, and business problems for our clients.
    Our mission at America Makes begins with, why do we exist? 
And as we all know, the U.S. manufacturing economy, the 
economic engine of manufacturing, is nowhere near as robust as 
it has historically been or needs to be. So what are we going 
to do about that? We are taking this incredible technology of 
additive manufacturing and accelerating it in the United States 
by dealing with the technical issues, the technical barriers, 
doing technology transition to companies for real products, new 
companies, et cetera, and then training the next-generation 
workforce and reinvigorating the interest of the youth of 
America in manufacturing as a well-paid, excellent career.
    Why additive manufacturing? As has been shared, it is a 
disruptive game changer. And game changer is often overused, 
but I am comfortable with declaring that additive manufacturing 
absolutely is a game changer, fundamentally because when you 
change the game, you change the rules, and this has a whole new 
set of rules.
    We have a lot of people come to us and talk about the 
excitement and their interest in additive manufacturing and 
say: Ed, I want to get involved in additive manufacturing.
    ASME has identified seven different types of additive 
manufacturing, and I realize when people approach us, it is 
like asking me, ``Hey, Ed, I want to cook dinner. Help me cook 
dinner.'' And to be more specific, what heat source are you 
going to be using, lasers, et cetera? What materials are you 
going to be using? Are you going to be using polymers or 
plastics? Are you going to be using metals? Are you going to be 
using ceramics? Are you going to be using organic tissue? Are 
you going to be using human tissue?
    Then what are you going to do with it? What is for dinner? 
Are you going to be serving plastic parts, mechanical parts, 
electronic parts? Food? 3D Systems did a demonstration of 
printing Oreo cookies for a demonstration that we were involved 
with. And you can print body parts.
    One of the things that excites me is the potential of 
integrated mechanical and electronic 3D printing devices, and 
one of our key members, the University of Texas at El Paso, 
with the W.M. Keck Center for 3D Innovation, we have recognized 
them as our first satellite center, broadening our footprint in 
a very substantial way across the United States.
    Our public partners in this adventure are the Department of 
Defense, the Department of Energy, Department of Commerce, 
Department of Education, NASA, the National Science Foundation, 
FAA, and the FDA, and we are strong believers in the power and 
wisdom of a public-private partnership.
    We currently have 163 members. In correcting an era in the 
printed testimony, we have 55 small businesses, not 85, 43 
large businesses, 13 Government partners, 10 nonprofit 
organizations, and 4 manufacturing extension partners, or MEPs, 
and they are a very valuable partner in helping doing the 
technology transition for this.
    As of January 2016, we had an $87 million portfolio of 
research and development. Sample projects, our use of additive 
manufacturing in the foundry business, led by 
YoungstownBusiness Incubator, revolutionizing the foundry 
casting business, making sure it stays on shore, taking out 
costs, cycle time, and improving product performance.
    We also have a project on biomedical devices with the 
University of Pittsburgh working on optimizing magnesium alloy 
for bioabsorbable cranial implants.
    Applying the partnership model to education, we are doing 
lots of activities, including a certification program with the 
Society of Manufacturing Engineers, a fellowship program with 
the American Society of Mechanical Engineers.
    We are partnering with the U.S. Department of Veterans 
Affairs as part of a Google.org grant to train returning 
military veterans. We think that is a very important service to 
the Nation. What better source of expertise and competency to 
tap, and innovative people as well.
    And then we are also revolutionizing STEM education for 
those that want hands-on learning, making math relevant in what 
you produce with the capabilities.
    Regarding the public-private partnership, its ability to, 
with cost share as the economic model, we think it is a very 
wise policy and business practice. With the taxpayers' 
investment on topics of mutual interest we are almost able to 
double the taxpayer's money. The industry side is able to 
maximize their research and development dollars. So it really 
is in line with the Better Buying Power vision of the 
Department of Defense to optimize contractor research and 
development and internal research and development.
    And then finally, in closing, quoting a good friend, Steve 
Welby, the honorable secretary of defense for research and 
engineering, with this technology, let's disrupt ourselves 
before others disrupt us. Thank you.
    [The prepared statement of Mr. Morris follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
  
    Mr. Burgess. The Chair thanks the gentleman.
    Dr. Herderick, you are recognized for 5 minutes. Just 
summarize your opening statement, please.

                STATEMENT OF EDWARD D. HERDERICK

    Mr. Herderick. Thank you. Chairman Burgess, Vice Chairman 
Lance, Ranking Member Schakowsky, and members of the committee, 
it is a privilege to share GE's thoughts on 3D printing, which 
represents the larger digital industrial revolution happening 
in the U.S. and globally.
    Today, a designer can create a computer-aided design model 
of a part and digitally transmit it to a 3D printer to be 
directly manufactured. Increasingly, new designs and processes 
like this are being connected and managed through a digital 
thread where the freedom of design and manufacturing seemingly 
has no limits. One of GE's engineering leaders appropriately 
captured it when she said: Complexity is free.
    My name is Dr. Ed Herderick, and I am the additive 
technologies leader for GE helping to spread the application of 
additive technology across GE's industrial portfolio. This 
portfolio spans across industries that build, move, power, 
transport, and cure the world, from jet engines and power-
generation machines, to locomotives, medical imaging systems, 
and more.
    The emergence of 3D printing and additive technologies in 
industry has been both sudden and disruptive. Recently, Boeing 
and Airbus conducted the first flight tests for their 737 MAX 
airplane and A320neo single-aisle jets with GE LEAP engines.
    LEAP is the world's first jet engine to include 3D-printed 
fuel nozzles, one of which I have here on the table, which as 
the engine's fuel injector, mixing fuel and air in precise ways 
to achieve maximum fuel efficiency and lower emissions. Using 
metal printing, the fuel nozzles are more fuel efficient, 
lighter weight, and more durable compared to those made with 
conventional technologies.
    The production of 3D-printed metal parts in jet engines 
would have been almost unheard of even a decade ago. Today, we 
are asking what else can be printed in the engine to drive 
performance even higher. As it is, GE Aviation will be 
producing 35,000 printed fuel nozzles per year at the world's 
first mass additive production facility in Auburn, Alabama. By 
2020, we will have produced more than 100,000 metal-printed 
fuel nozzles.
    This success of industrial implementation of additive 
technology in the aerospace industry is paving the way for 
broader applications in other industries. GE's use of additive 
technologies in aviation is only the tipping point of an 
exciting transformation underway across our 400-plus factories. 
By 2025, we expect additive manufacturing methods will be used 
in the design and manufacture of more than 20 percent of GE's 
new product concepts.
    Our efforts in additive are part of a much broader 
initiative to build a digital thread through manufacturing that 
transforms our factories into ``Brilliant Factories.'' It is 
through this digital thread where additive technologies can 
truly emerge and realize their full potential for industries of 
all kinds.
    In many ways, the excitement and emphasis on additive 
manufacturing of metals and industrial materials is the product 
of a more than 20-year research odyssey. As early as 1993, 
researchers at GE Global Research demonstrated the feasibility 
for binderless sintering of metal powders.
    It is interesting to note the development and material 
advancement between then and now. In 1993, the laser used had 
only 7.5 watts of power, a scanning speed of 2 millimeters per 
second, and produced parts that were 30 percent dense. Today, 
we are using lasers with 200 to 1,000 watts of power, scanning 
speeds of 1,000 millimeters per second, and produce parts that 
are greater than 99.9 percent dense straight out of the box.
    Further, when implemented with care, the performance of 
additively produced metal parts today meets and even exceeds 
that of standard casting techniques, and this is a critical 
point. I cannot emphasize enough the importance of 
understanding the physical metallurgy in order to produce this 
high-quality repeatable performance as the materials' 
properties are determined during the printing process.
    Manufacturers have had centuries to understand the physical 
properties of materials that have been traditionally milled or 
machined into the desired shape. With additive, and metals in 
particular, we have been working for 20 years. Fortunately, GE, 
through its Global Research Center, is home to some of the 
world's foremost experts in materials and additive techniques 
to help us make these evaluations.
    I would like to highlight a particular example where GE 
printed a miniaturized version of a steam turbine rotor to test 
a new idea GE researchers have for reducing the cost of water 
desalination. The rotor, roughly 6 inches long, is being used 
to demonstrate cost-effective water and salt separation. In 
that case, metal printing empowered the team to design 
something that could not be made in any other way and has the 
potential to dramatically improve the energy efficiency for 
this critical water desalinization process.
    In order to accelerate new applications like this one, GE 
has built a new facility in Pittsburgh, Pennsylvania, dedicated 
solely to 3D printing called the Center for Additive Technology 
Advancement. And that was an ARPA--E program and partnership.
    So I would like to highlight some of our work and the 
critical importance of building a robust ecosystem in additive 
technologies across the U.S. We are proud to be a partner of 
and applaud the America Makes National Additive Manufacturing 
Innovation Institute in Youngstown, Ohio, which has been a 
leader in building this ecosystem of manufacturers, machine 
makers, and other key stakeholders in the additive supply 
chain. As we go forward, GE will continue to look for ways to 
strengthen the additive ecosystem here in the U.S.
    In closing, additive manufacturing is a transformative 
technology that is opening up new frontiers and is an important 
tool in realizing GE's ``Brilliant Factory'' vision. It is and 
will have far-reaching impacts that accelerate the introduction 
of new high-performance products that will support global 
infrastructure for years to come.
    Thank you, and I look forward to your questions.
    [The prepared statement of Dr. Herderick follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Burgess. The Chair thanks the gentleman, thanks all of 
our witnesses for your compelling testimony this morning. 
Thanks for all you are doing for the revitalization for 
manufacturing in America, and we appreciate your efforts in 
that regard.
    Dr. Herderick, you talked about the experience you have had 
with manufacturing things for years, and now you have moved 
into this new realm. So I suspect there were significant 
challenges for, like, the quality control folks who assured 
that the device in question was going to stand up under the 
heat and pressure of a jet engine or a pump or whatever you 
were building.
    I suspect that has been an ongoing process and one that has 
developed sort of simultaneously with the technology. Is that a 
correct assumption?
    Dr. Herderick. It is. Yes, so it has been a many-year 
journey. And I think what GE brings to this is our knowledge of 
commercializing other advanced technologies, like advanced 
casting techniques, welding techniques, and the like. And so we 
use the same process methodology of really fundamentally 
understanding the science at our research center, as I 
mentioned, and then working closely with our partners to really 
understand how these products perform in the field.
    Mr. Burgess. But you are literally building airplane parts 
out of pixie dust and putting them into planes that we are all 
going to fly home later today.
    Dr. Herderick. Well, it is advanced metal powder that looks 
like metal flour, so I suppose you could paraphrase to call it 
pixie dust, but it is very highly engineered pixie dust.
    Mr. Burgess. That is reassuring.
    Now, Mr. Orringer, let me just ask you, well, your 
technology, you talked about it in your testimony, invented 
your company in the United States. The patent system in the 
United States, despite challenges, is one that is the envy of 
the world. But then you intersect with the regulatory side of 
the world. So sometimes things that are invented here but then 
subsequent manufacturing tends to go other places in the world. 
So is that something that you all have encountered?
    Mr. Orringer. So I am a little bit at a disadvantage 
because if I say anything wrong my lawyers are going to come 
down on me pretty hard.
    Mr. Burgess. This subcommittee is so genteel. There is no 
oath given.
    Mr. Orringer. I am not worried about you.
    Mr. Burgess. There is no oath given, no lawyers backing up 
the panel.
    Mr. Orringer. Let's just say you are absolutely right. So 
as I said, this technology has been around for 30 years. We 
have invented many of the technologies that we have been 
discussing here today, and we have been acquiring a lot of 
these companies along the way as well.
    In spite of it being 30 years old, it has become a little 
bit of the Wild West. And there are constantly new innovations, 
there are patents that seem to be very similar to patents that 
were filed previously, and we have to be vigilant. And, 
fortunately, we do have a very good, close relationship with 
the U.S. Patent and Trade Office. We do work very closely with 
regulators.
    There are always going to be issues, particularly when you 
compare our system with a system overseas, and that is where we 
are really challenged, and we do appreciate the assistance that 
the Government is providing us as we navigate these waters 
right now.
    Mr. Burgess. Well, I want you to consider this subcommittee 
as your subcommittee, and the interaction that we have 
initiated today, I want it to be an ongoing dialogue. Because 
to the extent possible we want to remove barriers for you, we 
don't want the invention to happen here and then the 
manufacturing occur somewhere else. We want these jobs in the 
United States of America. We want to make America great again. 
Could I say it any more succinctly?
    Mr. Orringer. I am not going to touch that.
    I will say to that point, I very much appreciate that, and 
I will say that what has actually been quite exciting coming 
here, I spent most of my career in the Federal Government and 
only have transitioned to the private sector 2 years ago. And I 
will tell you, coming to this company and seeing what we are 
doing in terms of U.S. jobs is phenomenal.
    We just acquired two European companies, a French company 
and a Belgian company. These are companies that have been 
honing the craft of metal additive manufacturing. And we are 
now seeing an insourcing, thanks to my company, not only in 
terms of protection, but R&D. We are actually moving these jobs 
over here.
    And it is actually thanks in part to projects that we are 
doing with America Makes. I am actually funding an aerospace 
and defense project. We have started to build up a laboratory 
in Penn State. And it is thanks to the good work of Ed and his 
colleagues, as well as other folks that we are teamed with, 
that is seeing this technology not sit still but continue to 
innovate, and we will certainly stay engaged with you as we 
navigate these waters.
    Mr. Burgess. And I appreciate that. You are two of the most 
highly regulated industries, medicine/healthcare and the 
aerospace industry.
    Mr. Morris, did you want to add something?
    Mr. Morris. Yes. In regard to the global economic 
competition we find ourselves in, it is absolutely true that 
although the technology of additive manufacturing was invented 
in the United States, we lost the lead, and generally the sense 
is the Europeans are ahead by about 5 years because they 
doubled down with national investments in their areas, and they 
are the major source of the materials and the 3D printing 
devices. Although in the United States companies such as 3D 
Systems are coming on very rapidly and regaining the lead for 
the United States, which we think is crucial.
    I think this really comes into focus, the importance of a 
public-private partnership as a wise policy for a nation in 
this global economic competition we find ourselves, and it is a 
good business model for the taxpayer and for the companies and 
academia, for that matter.
    Mr. Burgess. Very well. The Chair thanks the gentleman.
    My time has expired. I recognize the ranking member of the 
subcommittee, Ms. Schakowsky of Illinois, for 5 minutes for 
questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I encountered 3D printing in 2013. We had a manufacturing 
showcase, and Congressman John Sarbanes brought in a business 
from his district, Direct Dimensions, and they took a picture, 
three or four, and made this 3D print, a bust of me in plastic. 
It was very interesting and a little strange. But I did save 
it.
    I want to say this is part of our series, as I am sure our 
chairman said, of our Disrupter Series, and what we are hearing 
today are the wonders of this and the positive.
    And I just want to say before I ask questions along those 
lines, that these technologies can be in the hands of all kinds 
of people as we go forward. And I hope, Mr. Chairman, that we 
will also have a hearing on what are the things that we ought 
to watch out for.
    I know that Congresswoman Clarke raised the issue of the 
ability to produce perhaps small arms. But who knows? And so I 
think we ought to be looking ahead to and thinking about if 
there are threats to our country because of these kinds of new 
technologies and in the wrong hands, not only through our 
concerns about competition around the world and making sure 
that we can advance making an America, but actual threats.
    But I wanted to focus on the positive too. At Northwestern 
University, which is in my district in Evanston, Illinois, 
researchers are pioneering biocompatible inks made of graphene 
that are used to 3D print scaffolding for tissue transplants 
and regeneration. Very exciting. These graphene structures can 
stimulate cell regeneration and also are cost effective.
    So, Mr. Orringer, could these kinds of cutting-edge 
treatments become more widely accessible through the use of 3D 
printers?
    Mr. Orringer. Yes. Actually, I just returned from your 
district. I was just there last week.
    Ms. Schakowsky. OK.
    Mr. Orringer. I talked to a couple of folks about 
Northwestern's interest in metal. And I will tell you, the 
Chicago area is booming in this area, very competitive area for 
this technology, and it is very important that we continue to 
innovate there and incubate that technology.
    On the bio side, I will tell you, there is a lot of fact 
and fiction and aspiration. To answer your question, I think 
you summed it up quite well. There is sort of the short term, 
there is a lot that can be done in scaffolding, and it is being 
done currently, and I would say we are about 1 to 2 years away 
from seeing this matured sufficiently where it is going to 
become as commonplace as some of the other methodologies I 
discussed.
    On the other side, our folks in our medical modeling 
department indicated that we are still a few years away from 
actually seeing a viable process for some of the other 
bioprintable inks. But the research is being done. Actually we 
do a feasible path forward. We are watching a lot happen in 
this marketplace. There are a lot of exciting new companies 
that are coming online in this space, and we would encourage 
that technology continue to flourish.
    The Government itself has a role to play. We have been 
talking to NIH about this particular issue to see if there are 
ways we can work with them in terms of spurring innovation in 
this area.
    Ms. Schakowsky. So you indicated some fairly early benefits 
here too. So at what point do you think we will be able to see 
real savings for patients, and are we doing what we need to do 
now to make that occur?
    Mr. Orringer. Well, as I highlighted in my opening 
statement, 3D printing has long been providing strong value to 
patients, not only in the hearing aid, where we are making 99.5 
percent of hearing aids through 3D printing, or Invisalign, but 
in the medical modeling and in the implant process as well.
    It is literally saving lives. We were talking about this 
early before the hearing. We charge patients about $100 a 
minute in the operating theater.
    So if you can reduce that time by rehearsal, by using CT 
scans, 3D printing, the model, and then practicing that surgery 
over and over again, and then also 3D printing surgical guides, 
which are essentially stencils that you place on a patient, 
reducing the amount of improvisation to zero, then you are 
literally going to be saving lives, enhancing precision, and 
saving money.
    And so I can tell you that we have done tens of thousands 
of these procedures, and we are seeing a lot of breakthroughs.
    In terms of the scaffolding, there is a lot of investment 
in this arena right now. There is a lot of promise. And the 
Government is well involved as well, not only from the NIH, but 
in the Department of Defense, the United States Navy, Walter 
Reed National Medical Center. There is a lot of work being done 
here, and I think we are not too far away from some active 
clinical trials.
    Ms. Schakowsky. Great. Maybe in another round I could ask 
Mr. Morris how America Makes works in this health space.
    Thank you.
    Mr. Burgess. The gentlelady yields back. The Chair thanks 
the gentlelady, recognizes the gentleman from Kentucky, Mr. 
Guthrie, 5 minutes for questions, please.
    Mr. Guthrie. Thank you very much.
    It is great to have everybody here. What an interesting 
series we have had. And as I really grasp technology when I was 
in grad school in the mid-1990s, not even that long ago, and it 
just really disrupted the typewriter and the calculator 
industry because we did the same thing that they were already 
doing, just did it more efficient. I think also it disrupted 
the wite-out industry, when I got to go on a word processor, 
didn't have to use it anymore. But it really just already took 
what we were doing and just made it better.
    And what is happening now is you are actually taking this 
technology and just doing things we could never do before. It 
is amazing in the body parts and the replacement, you couldn't 
do those vertebra probably in any other type of manufacture.
    I have a manufacturing background, and we take blocks of 
steel and make dyes out of it. We whittle it down, for lack of 
a better term. That is actually what we do, just computer-
controlled machines. We are now creating stuff by printing it. 
By being additive, I hope it doesn't replace what we do, but it 
certainly enhances the precision of what you can do in specific 
things. So it is fascinating to be here.
    I am going focus with UPS. Their Worldport is just outside 
of my district. But a lot of your employees and a lot of your 
customers are in my district, Zappos shoes, Bestbuy.com, and 
Geek Squad, which is a pretty interesting place to go. They 
don't have a plant manager. They have a mayor. And they don't 
have community leaders. They have ambassadors. So it is just an 
interesting business concept, but great, great people to be 
around.
    But a lot of it is based on supply chain. I know a lot of 
us think of UPS as--and you said it in kind of your opening 
statement--the brown trucks and the airplanes that are flying 
in and out of Louisville. But I am more interested in what UPS 
really does. You talked about it a little bit. I would just 
give you some time to elaborate on how UPS actually helps small 
businesses with supply chain management to build their 
businesses and how 3D printing is a big part of that mission.
    Mr. Amling. Yes. Thank you very much.
    So UPS is more than a package delivery company. We are a 
network company. We are not a manufacturer. But we are a 
network company. We are a problem solver. And so we see 3D 
printing as another tool in the bag to make businesses more 
efficient and to help them expand. So that is what the small 
businesses, it is what the UPS store is all about, in helping 
small businesses grow.
    So when we put 3D printers in the UPS stores, one of the 
things small businesses have to do, if they have a new product 
idea, is to design a prototype. Prior to 3D printing, that is 
an arduous task, right. You have got to create a model. 
Sometimes that model is produced outside of the U.S. and 
shipped back. Now we are giving them the opportunity to produce 
that model and do rapid prototyping right in their home city.
    I have an example of a gentleman that we highlighted during 
our 3D Printing Week named Caleb Kraft. And what he did was he 
is creating supplements to gaming controls so people with 
disabilities can play the game. And because people have 
different disabilities, everyone is different. Can you imagine 
how difficult that would be before 3D printing?
    That is one of the things. We are unleashing innovation. 
And so that is the small customers. We are seeing a lot of 
hobbyists, small businesses, and designers using the UPS 
stores.
    We have now more of an industrial-grade 3D printing 
operation in our Louisville supply chain headquarters, and that 
is being used by designers, but it is also being used by big 
manufacturers that have these service part networks, and they 
need to have on-demand parts. And so we are allowing them to 
order parts from us and be delivered anywhere in the country.
    Mr. Guthrie. I have just about a minute. I just want to ask 
you a couple of more questions.
    Mr. Amling. Yes.
    Mr. Guthrie. I will ask them both and then let you answer.
    So where do you see the most demand for 3D printing today 
and where do you see it in 3 to 5 years? And what policies 
should we consider, what are important for us to consider as 
you see the demand for 3D printing and where it is going? And 
what can Congress do to help or not help--or get out of way, I 
guess?
    Mr. Amling. So great. So right now this is what we are 
seeing. We are seeing a lot of rapid prototyping. That is kind 
of the application we are seeing the most. We are also seeing a 
lot of small batch production runs. So even large 
manufacturers, if they are only printing or need to produce 500 
or 1,000 of a certain item, it is actually less expensive right 
now to do it via 3D printing. And we are all about efficiency, 
and that is what they are doing.
    Now, 5 years out, I wish I had a crystal ball, but what we 
see is we see more customized products, right, that are 
tailored to the specific needs of the individual, and 3D 
printing can allow that to happen. We think that is a little 
further out, but right now we see definitely on-demand parts in 
prototypes.
    In terms of legislation, again, UPS is a network, UPS is a 
global network. Right now we are only doing 3D printing in the 
United States. Eventually, just like we have helped businesses 
by connecting a global network with our transportation, the 
plan is to do that with 3D printing. And so as that happens, 
there are going to be legislative issues that arise that will 
need to be addressed to keep that going because we know that 
the more we can promote global commerce and trade, it is good 
for everybody.
    Mr. Guthrie. Thank you. Yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes Ms. Clarke from New York, 5 minutes 
for your questions, please.
    Ms. Clarke. I thank you, Mr. Chairman.
    I thank our panelists today. Very stimulating conversation. 
It is great to hear all of the innovation that is taking place, 
and the sky is the limit as far as I see it.
    I would like to focus on access for underrepresented 
communities. This has been one of the focus issues that are 
especially important to me, using the emerging 3D printing 
industry as a unique means of empowering and including 
entrepreneurs from underserved and minority communities, 
because startups costs are lower, flexible, customization is 
easier, 3D printers offer advantages and opportunities to small 
businesses and new entrepreneurs entering the market.
    Still, huge diversity gaps remain in the technology 
manufacturing space. So to harness the true potential of 3D 
printing, I think it is important to commit to eliminating 
obstacles to sort of equitable and to promoting initiatives 
that I believe could close this gap.
    You, Mr. Orringer, spoke about a relationship that was 
established with Penn State. I want to drill down a little bit 
and talk about perhaps colleges and universities in the HBCU 
system and the HSI system and community colleges.
    And then, Mr. Amling, you spoke to the small business 
advantage as well.
    So, Mr. Morris, my first question goes to you. What kind of 
outreach does America Makes do to communities that are 
underrepresented in the tech world, including minority, low-
income, and disabled workers?
    Mr. Morris. Thank you. Excellent question. That is one of 
the key reasons why the University of Texas, El Paso, was so 
attracted to us. Not only are they a leader in developing the 
technology of additive manufacturing, but also in deploying it 
in their community with a heavy U.S. Mexican population, 
economically handicapped. And we want to partner deeper with 
them to be able to help them continue and then expand their 
technology transitions, again more education in that area, and 
spawn new products, et cetera.
    Tied to that also is the vision that we have of getting 
printers in every school in the United States. I was certainly 
taken aback last year when China announced an intent to put 
400,000 printers in every one of their elementary schools. We 
should be doing the same thing and proceeding up the chain for 
more than just the elementary schools. That is the time to 
catch the youth in America, get them excited in careers in 
making things.
    And in our context, when we talk about additive 
manufacturing, it is a system of systems of design, 
manufacturing, inspection, production, et cetera. So it is all 
of these different well-paid, good careers, long-term careers. 
Catching the youth in America no matter where they are, no 
matter who they are, I think is pivotal for the United States 
and is an important step forward.
    Ms. Clarke. Can you speak to some of the common challenges 
that entrepreneurs from underrepresented communities may face 
when beginning to incorporate 3D printing into their own small 
businesses?
    Mr. Morris. What we are finding as small companies come 
into America Makes as members, and we operate as a community of 
practice openly sharing, and we operate in this middle ground 
of precompetitive activities, when the small companies are able 
to rub shoulders with companies like 3D Systems, Rockwell 
Collins, Lockheed Martin, Northrop Grumman, et cetera, they 
develop relationships. So one of our small companies, rp+m in 
Cleveland, has benefited from that relationship and is now 
doing contracted work for them.
    So building this community, we are very focused on the 
additive manufacturing supply chain ecosystem: How do we define 
that, how do we focus it in regional areas? We are doing some 
pretty incredible things in our region in northeast Ohio and in 
southwest Pennsylvania trying to flesh out, define that 
ecosystem, and energize it for all of the communities, and with 
a focus on those that are most urgently needing that economic 
boost.
    Ms. Clarke. Very well.
    Mr. Orringer, I saw you nodding a bit there and smiling. Do 
you want to share your thoughts?
    Mr. Orringer. Well, sure. As we were talking about 
education, I was just reminded, when I started working for this 
company, I came home with a little 3D printer and a 3D scanner. 
And I have a 5-year-old at home who is more advanced 
technologically than I am. My wife is a surgeon, so she came 
home from a long day performing surgery, fell asleep watching 
TV. My daughter scanned her head, produced a model not too 
different from that, and she is 5 years old. And I was blown 
away, because I still hadn't figured out how to turn the darn 
thing on.
    And if you can see what happens when we bring these things 
into schools, it is not about 3D printing. 3D printing is a 
means to an end, and that is what we need to understand.
    What I think about, I think about this in terms of digital 
literacy, and this is really critically important, particularly 
in underserved areas. We need to make sure people have a full 
sense of what it means to be part of the digital economy.
    So rather than focusing on getting expensive 3D printers 
into small businesses, what we really should be doing is making 
sure they have access to the digital tools, different kinds of 
CAD, computer-aided design technologies, training in this kind 
of technology.
    We can find ways to give them access to machines, whether 
it is through great companies like UPS. We have similar 
programs. We have a company called Quickparts that does on-
demand printing. You send us the CAD, we will print out the 
parts.
    It is not about getting the 3D printer necessarily to those 
entrepreneurs. We actually are able to reduce the logistical 
footprint for folks. And now we are digitizing things. You 
don't even need to have that.
    So I think the task is important. I don't think it is as 
difficult as it could be, and there are institutions like 
America Makes and others that are doing some, but we need to do 
more. We have talked a little bit about our outreach to the 
veterans community. We have done a lot with Walter Reed and the 
Veterans Affairs Administration. But again, there needs to be 
more in this space, and we would love to talk to the committee 
and figure out ways to catalyze more of this.
    Dr. Herderick. Actually, if I may add to that.
    Mr. Burgess. Yes, please.
    Dr. Herderick. Just briefly.
    Mr. Burgess. Sure.
    Dr. Herderick. I think you made some great points. And I 
think what is really exciting about 3D printing is it is just 
such a transformational educational technology for getting 
people into manufacturing, and it has really just gotten into 
the public consciousness.
    And I was actually with a GE Volunteers group in the Bronx. 
We did an outreach, young entrepreneurs workshop with some 
students, middle school and junior high school students. And 
what was amazing was half the students, they were coming up 
with ideas to 3D print different consumer parts for iPods and 
things. And when we go out and do these GE Volunteers outreach 
activities, I am doing things like taking fuel nozzles, taking 
manufactured components, we take 3D printers into schools in 
different workshops and things.
    It is this tool to get people hands-on with manufacturing 
in a way that we couldn't do with casting or welding. So it is 
really a gateway to get them into these great entrepreneurial 
fields and these great careers. It just gets me really, really 
excited.
    Mr. Morris. Very quickly. We do some summer camps, and one 
particular summer camp was 7-through-10-year-olds. And one of 
the exercises was to take the students into a little kiva round 
hut, white board, and they drew cookie cutters. And one 
minority student drew a nice little figure cookie cutter. He 
then took it is over to the desktop 3D printer and made the 
cookie cutter. And we have got a picture of him, you know, 
look, mom, this is what I thought, this is what I designed, 
this is what I manufactured, here is a cookie cutter for you.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Lance, 5 minutes for your questions, please.
    Mr. Lance. Thank you, Mr. Chairman. A very interesting 
hearing.
    Mr. Orringer, balancing health and safety is obviously an 
important mission for medical device manufacturers and Federal 
regulators alike. What steps are the Federal regulators taking 
in order to educate themselves and the public about 3D-printed 
surgical implants? Has this approach been proactive? And what 
else, in your judgment, could be done?
    Mr. Orringer. Yes, sir. Thank you so much for this 
question.
    I have to say, and it is not just because I am a former 
Federal bureaucrat, we have been actually pretty pleased with 
the engagement that the Food and Drug Administration and others 
have shown. They actually held a workshop in October 2014 on 
their Silver Spring campus. They invited companies not only 
from the United States, but from all over the world, to have 
this dialogue, and it was an all-day affair.
    The FDA said they were in receiving mode. They wanted to 
hear what the concerns were from us about regulation, what the 
concerns were for us in terms of barriers for innovation, are 
we any different from any other technology when it comes to 
regulation. And I think in the end, the conclusion was no, we 
are one tool in a toolbox. You have digital tools, you have 
means for designing things, which is the CAD package, and you 
have different ways for actually executing.
    So I think one of the challenges we need to stay on top of 
is folks' attempts to redefine this technology as something 
that is extraordinarily different. We are not making Star Trek 
replicators here. These are very important tools, they have 
their uses. They also have their limits.
    One of the things I sort of alluded to in my statement, 
though, was concern about the inability for the pay codes to 
keep pace with innovation. So right now we are innovating doing 
unique surgical processes, we are saving a lot of money for the 
health system overall. But the truth is there are no insurance 
pay codes that can tell the patient this is how much it really 
costs.
    So what is actually happening is we are saving money, but 
the insurance companies, whether it is Medicaid, Medicare, or 
private insurance, don't have a means to code what that 
procedure is. And so there is actually a bit of a margin here. 
And we would love to engage the folks at CMS, Medicare, 
Medicaid, or others to ensure that we are actually able to make 
a fair process and bring that up to standard.
    Because right now, as you know, sometimes Government 
regulation is a little slow, sometimes standards can be a 
letter slow to implement. We really need to get this right, 
because we are not really realizing all the potential for this.
    Mr. Lance. I trust those at Medicare and Medicaid and CMS 
will be monitoring this hearing, because obviously we need 
those codes for the reasons you have suggested.
    Mr. Morris, you wish to comment?
    Mr. Morris. I personally attended that workshop by FDA in 
2014, and I found it intriguing. My background is aerospace and 
defense, and as I was sitting through the different 
presentations on medical applications, I found myself about 
two-thirds away through the first of a 2-day event, I was 
getting bored.
    Why would I be getting bored? The problems and issues that 
they were all addressing are ubiquitous in additive 
manufacturing: need better materials properties, need better 
inspection capabilities, need better design tools, et cetera.
    At the end of the 2 days, my personal synthesis was there 
are basically two differences in medical applications from all 
the different things, like what they are doing in GE: 
sterilization and body biocompatibility. Because of the 
problems, it makes the importance of an institute focused on 
additive manufacturing and being able to share across business 
sectors really relevant.
    So we were very pleased when the FDA actually became a 
signed member about a month ago so they can sweep up the things 
we are already learning, hear their specific needs, and advance 
all the technology across the United States.
    Mr. Lance. To the distinguished members of the panel, are 
we in the advance in this country or do other countries, 
perhaps in Europe or Asia, have a system that recognizes this 
to a greater extent than we do in this country?
    Mr. Morris. It has been interesting in that one of the 
things that I heard from a good friend, Terry Wohl, who is one 
of our members, of Wohl Associates, he did some visits at the 
invitation of the Chinese Government a couple years ago, and 
they shared that they are doubling down on their national 
investments in additive manufacturing because they saw what the 
United States was doing, so they are now surpassing us.
    A representative from Singapore visited me personally in 
Youngstown, Ohio, in our facility in downtown Youngstown, and 
they have now stood up a center for 3D printing and innovation 
in Singapore with initial funding of $150 million, more than 
twice the funding I have.
    Mr. Lance. Thank you. My time has expired, but I hope to be 
able to purchase this further in the future. Thank you, Mr. 
Chairman.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentleman from California, Mr. 
Cardenas, for 5 minutes for your questions, please.
    Mr. Cardenas. Thank you very much for imparting your 
knowledge with us on what is going on in this dynamic, fast-
changing industry.
    The first question is from my wife. When do you think that 
they will be able to make a husband's brain? I didn't say a 
human brain, I said a husband's brain to help someone pick up 
after oneself, remember anniversaries, et cetera. Just kidding, 
just kidding. That is the impossible, I know.
    Now, on a more serious note, we have noticed that in 
America's libraries we have had an increase of donations and 
opportunities where libraries are investing in 3D printers now 
to the tune of over 400 libraries have access to little or no 
cost to individuals going to the library.
    To me, this is a very important issue for making sure that 
we have access to as many minds and as many inquisitive folks 
so that they can get turned on to how wonderful it is and the 
potential of getting a job in the industry.
    How committed is the industry to advancing that kind of 
effort?
    Mr. Orringer. Well, I can take a shot at this just because 
we had a little bit of an excess inventory of desktop 3D 
printers about a year and a half ago. And we didn't rehearse 
this, by the way. And I had this great idea: Why don't we 
donate these printers to libraries across the country? With one 
hitch. I didn't want to donate a couple hundred printers to 
libraries and have them just sit on a shelf and collect dust. 
That is a really big problem I see.
    So we actually held a competition, we partnered with 
America Makes, because they know how to do competitions, and 
had an overwhelming response from all across the country.
    We need to do more like this. It is going to pay back 
dividends. We are struggling certainly still in terms of 
workforce development, in terms of making sure people have 
access to this technology. And I strongly believe that if we 
can start bringing these kinds of tools to young people as soon 
as possible, that is going to pay dividends in the long run.
    So we are strongly committed. I know other folks on this 
panel are as well. And we will be happy to keep you informed on 
our progress.
    Mr. Cardenas. Yes. That is an investment in human capital 
and connecting your industry to the minds of the workers of the 
future.
    Yes, Mr. Morris?
    Mr. Morris. I pay a lot of attention to unintended 
consequences in what we do. You can do something really 
admirable, and at the end of the day you are not doing 
something so admirable. So even with the vision of a printer in 
every school, we are urgently needing encouragement at all 
levels of the Government, beginning at the local communities 
and perhaps in some of the local rotaries, et cetera, 
foundations and groups that are able to provide some funding.
    For example, if we put a 3D printer in Ms. Brown's class 
and it breaks, who is going to fix it? Who is going to buy the 
materials? Ms. Brown? That is not very kind.
    And for the libraries, same vignette. How do we keep it 
operating, how do we get the training materials in all the 
libraries and all the schools, how do we have the resources 
made available so it is not burdensome when this thing shows 
up. You can do great things with innovation, but we have to do 
it wisely.
    Mr. Cardenas. Yes. Thank you for pointing that out.
    One of the things that I am so proud to be an American is 
the fact that we have this reputation that when we embark on 
something and we dedicate ourselves to doing it well, it takes 
a long-term vision and a long-term commitment. And there are 
infrastructure costs, there are ongoing costs, et cetera, 
instead of just the flash of, for example, the ribbon cutting, 
giving away printers, and then coming back a year later and 
embarrassingly realize that none of them are in use because, 
you just explained, that without the follow-through, they are 
not doing anybody any good.
    Mr. Morris. Right.
    Mr. Cardenas. And it is a falsehood whenever any of us, 
whether it is Government or private industry or 
philanthropically, we do something without looking at the long 
sight of the issue. So thank you for pointing that out.
    But the follow-up on that is I hope that you read into my 
question, and not just libraries, public schools, et cetera, 
that the industry actually maps out and shows us how we can 
either partner or they can take the lead, et cetera, and how we 
can make sure that we have that available as much as possible 
to every community in America. Again, it is an investment in 
human capital, I think.
    I want to point out with my limited time here that when it 
comes to bioprinting, apparently when you look at the 3D 
printer is used to place bio ink in precise locations, allowing 
cell types to align themselves in a manner that resembles the 
origination of native human tissues. These 3D human tissues can 
then be employed in drug discovery and development, biological 
research, and therapeutic implants for the treatment of damaged 
and degenerating tissues and organs, et cetera. You get the 
picture. This is amazing.
    What do you see the top-line issues facing those efforts 
when it comes to regulatory and technology and world 
competition?
    Mr. Morris. I am not competent to address the regulatory 
issues, but what I will say is I think where our National 
Additive Manufacturing Innovation Institute can come to play in 
a very important way in advancing bioprinting, as we do with 
all the other areas of application of additive manufacturing, 
is getting from the research to the true product application 
there is historically what is called the valley of death.
    And we have got a structure to cross that valley of death. 
It begins with pooling a community of the researchers, 
academics, labs, et cetera, across the Nation, with the end 
users, and start that discourse of what do you need, where are 
you going, what are you building, how can we apply it, how can 
we accelerate it.
    And so we do a lot of workshops to do roadmapping, and we 
would eagerly like to do roadmapping with bioprinting. We have 
several of our members who are doing some landmark research and 
development in bioprinting, such as the University of 
Pittsburgh, Case Western University, et cetera. Team those up 
with the medical end users, working with our new member FDA, et 
cetera, to lay out what is the right path, how do we 
accelerate, what is the funding model.
    And then continue to go back to this model of the 
opportunity to do the key thing in a public-private 
partnership, and that is share the cost. Where it is high risk, 
Government money comes into play. Industry needs to invest 
because they are doing the product application. We think that 
is a very shrewd model going forward, a public-private 
partnership with cost share, which is the unique capability of 
an Additive Manufacturing Innovation Institute.
    Mr. Cardenas. Thank you, Mr. Chairman. I yield back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentlelady from Indiana, Mrs. 
Brooks, 5 minutes for your questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And thank you all to your panelists for your actually 
exciting testimony. I wasn't sure when I was reading this 
initially.
    But I think why this is so exciting is because I think this 
is the way to draw young people back into manufacturing. We 
have in central Indiana, in my district, about 50 middle and 
high schools that have 3D printers that are being utilized in 
the classroom. Indiana is one of the country's most 
manufacturing-intensive States.
    And then before coming to Congress, I was senior vice 
president at our State's community college, and where I learned 
about 3D printing during that time period, but I think we still 
need to make sure that the adults and the educators who are 
working with our young people have an understanding about this 
3D printing.
    I had an event, and we welcomed 3D Parts Manufacturing to 
educate school counselors at a school counselor event, to try 
to educate them about 3D printing, because they are the ones 
who influence our children and get them excited about these 
things.
    So I am curious, in expanding on the public-private 
partnerships, which I completely believe in, how do we do a 
better job bringing industry, collaborating with our educators 
and with either our nonprofits, and try and get the young 
people more engaged in 3D printing and skills that they need? 
What are some best practices you have seen? How do we expand 
this? Because I think it is one of the manufacturing tools of 
the future. What do we need to be doing better?
    And believe it or not, I actually think calling the place 
where they work maker spaces actually helps because young 
people are not as interested in manufacturing, I think, as they 
are in making.
    Mr. Morris, you want to start?
    Mr. Morris. I am wrestling with jeopardizing and putting at 
risk a very important relationship we have with Elizabeth 
Forward School District outside of Pittsburgh, Pennsylvania, 
and Elizabeth Forward. They are a premier benchmark of 
redefining education in the United States and leveraging the 
power of additive manufacturing 3D printing to teach.
    The risk in the friendship is they are already being 
inundated with people that want to know what they are doing, 
because this is the right place to go. So we need to find some 
way to assist them. And the key thing at this point is 
communication, communication. We could use more resources to 
communicate better across the Nation this is what is happening, 
this is how you do it, this is where we can work together in 
the public-private partnership model to in very interesting 
terms infect the United States with manufacturing is back and 
it is the right place for careers.
    Mrs. Brooks. But if you think about--so, Dr. Herderick, GE 
is located in so many locations across the country, UPS 
obviously is, I don't know that your company is yet, but, I 
mean, what do you view as industry's role in partnering with 
the education community? And I welcome the fact that you put 
them into libraries and so forth, but what should we be doing 
that we are not doing?
    Mr. Orringer. So I guess I want to, at the risk of 
contradicting myself, I want to make sure we distinguish a 
little bit. Ed did this a little bit already. But there is a 
distinction between what we see in maker spaces and what we see 
on a factory floor, and particularly when we get into some of 
the very hardline manufacturing industries such as aerospace 
and defense and others. And I really think it is important that 
we embrace both cultures and drive innovation in both areas.
    So there is a great company that I work with in Indiana 
called 3rd Dimension. They have a beautiful shop of many metal 
3D printers. They have a whole host of aerospace and defense 
customers.
    They are tied to Purdue. They are not too far away from 
Purdue, actually. And they are a small business, but they are 
embracing a whole host of fellowships and internships, getting 
folks excited, not just about the usual maker kind of space 
where you maybe play around with tchotchkes and toys, but these 
massive million-dollar hunks of hardware, to actually see what 
actually happens on a shop floor and how we are revolutionizing 
manufacturing, which is a totally different concept.
    It is really important that you see both sides of the 
spectrum. Maybe you could see the maker spaces as a gateway. 
But if you don't bring in the other part of the equation, then 
you are missing it.
    Because additive manufacturing is a serious business. We 
are a global company, we are the largest, we are in 50 
locations all over the world. People haven't really heard of 
us. And there is probably a reason for that. The reason is 
until recently GE wouldn't want to brag that they used additive 
manufacturing, because they didn't want their competition to 
know how they made the secret sauce.
    And that still takes place. Our first additive 
manufacturing machine, the serial number is SLA-3. I saw it a 
couple years ago in General Motors. It was installed there in 
1989. This is not a new industry, it is just new to people who 
are suddenly--so I think the maker space concept is great, 
because it suddenly captured people's imaginations. Bus is also 
important when you think about public-private partnerships, 
encouraging manufacturing, that you also bring people into the 
fold and understand this is also revolutionizing manufacturing 
now.
    Mrs. Brooks. Thank you.
    Thank you. My time has expired.
    Mr. Burgess. The gentlelady yields back. The Chair thanks 
the gentlelady and recognizes the gentleman from Mississippi, 
Mr. Harper, 5 minutes for your questions, please.
    Mr. Harper. Thank you, Mr. Chairman.
    And thanks to each of you. It is an amazing technology, and 
we really are just only beginning to see what all we are going 
to be able to do in the future.
    And, Mr. Amling, I don't have a question, but certainly 
welcome. UPS was my very first job in my life as a 15-year-old. 
I loaded an 18-wheeler every night with boxes. And I am the one 
who packs the trunk on the family trips.
    Mr. Amling. So you learned to work hard.
    Mr. Harper. We know how to build the wall.
    Mr. Amling. Bend at the knees, right?
    Mr. Harper. That is it. And it might have been a 3D 
component to that as well, I am thinking.
    But thank you each for being here.
    Dr. Herderick, when GE obtained certification from the FAA 
for its LEAP jet engines, it was clearly a major accomplishment 
for additive manufacturing. I am just curious, how many pages 
of testing data does a company need to rely on in order to 
obtain that FAA certification for a new item like that?
    Dr. Herderick. I mean, so our materials testing database 
that we build up before we take it to the FAA, I mean, it is 
many hundreds, even thousands of pages. I mean, it represents 
over a 10-year journey from initial concept. I mean, it was a 
single engineer, she had an idea in our combustors group for 
the fuel nozzle looking at machines, and then, of course, it 
became a cast of many hundreds. And so it was a pretty serious 
book of knowledge that we took to the FAA, as you might 
imagine.
    Mr. Harper. It is amazing. I am just curious, what extra 
effort was needed to show that the nozzles, which was entirely 
3D printed, that they were strong enough and did not create a 
safety risk? How do you go about that?
    Dr. Herderick. So it all starts with understanding the 
fundamentals of the process and demonstrating what we would 
call a stable process. So demonstrating over many, many 
thousands of cycles. It is not just building one and going out 
and testing it. It is many years of effort and building many 
thousands of fuel nozzles and demonstrating that every one is 
the same coming out of the machine process.
    We do post-treatments to heal any defects that come out of 
the machining process. And then we actually x ray the parts 
before they go out into service. So each part, we have a 3D 
image of the part before it goes onto any engine.
    Mr. Harper. And, of course, going through this process, did 
this help GE learn how to navigate the certification process so 
that future parts maybe experience a quicker process?
    Dr. Herderick. It did.
    Mr. Harper. OK. That is great.
    How does additive manufacturing fit with and add value to 
the traditional supply chain? Explain that to me a little 
better.
    Dr. Herderick. Yes, it is a great question. So I will talk 
about the metals technology. So I think a lot of people look at 
these metal printing technologies and think maybe this could 
replace casting or replace forging. In reality what we are 
using it for is to create more valuable, higher performance 
products during the design phase that then transition to 
castings and forgings. So really what it is doing is opening up 
some highly value-added applications, which really truly fit 
with American manufacturing, high value, complex shapes and 
parts that we wouldn't be able to design without having the 
metal prototyping processes during our testing phase.
    Mr. Harper. Right. That is great.
    Let's talk about cost for a minute. What kind of cost 
savings do you think could be achieved if a manufacturer is 
able to take full advantage of 3D printing and integrate it as 
fully as possible into supply chain?
    Dr. Herderick. Well, I think the biggest cost is time to 
market, so being able to get to market much, much more quickly, 
and reducing the cost of different iterations of product lines. 
That is really where we are seeing the biggest benefit: getting 
to market faster with higher performance products.
    Mr. Harper. Got it.
    Mr. Orringer, what method of printing was used to produce 
the titanium hip implant, and why was this the method best for 
the implant?
    Mr. Orringer. Yes. So this is the part we were talking 
about here, and you can see it is pretty porous. We use a 
process called--well, we call it direct metal printing. It is 
powder bed laser fusion, which is kind of a mouthful.
    The reason why it is so important--and I actually had to 
check with my wife who is a surgeon to actually understand 
fully what we are talking about here. So typically when you 
make a part like this, it is going to be casted, and you can 
ultimately cast a pretty solid and dense part. That is going to 
cause, when you are talking about titanium, stress on a bone.
    What we are able to do with 3D printing is we are able to 
actually design a part that is optimized to both reduce stress 
on the bone and also be porous enough to get bone to actually 
grow and actually regenerate, and this can only be done through 
this process. Typically, what they have done in the past is 
they will cast this component and they will have a coating on 
top that is porous. It is relatively superficial. If you can 
get a densely made part that is also porous, as contradictory 
as that sounds, you can actually help regenerate bone and help 
with the growth and not lead to bone stress and----
    Mr. Harper. So this is not only going to be better for that 
area, but also speed up the healing process.
    Mr. Orringer. Exactly. Exactly. And we are actually seeing 
this area explode. This is part of the factory of the future.
    Mr. Harper. Great.
    Well, look, I want to say thanks to each of you being here.
    I am over my time, I yield back, even though I don't have 
any time, Mr. Chairman.
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman and recognizes the ranking member of the 
subcommittee, Ms. Schakowsky, for redirection.
    Ms. Schakowsky. Mr. Morris, I had just wanted to ask you a 
question on how America Makes' work in the health space has the 
ability to translate into increased access for patients across 
the country to the advancements that 3D technology has helped 
to do
    Mr. Morris. So I am not sure I heard everything there. 
Excuse me.
    Ms. Schakowsky. Well, I am just interested in your work in 
the health space and how that is going to advance patients' 
access to better health care.
    Mr. Morris. Right. We have got a couple of projects 
underway and several of our members are deeply involved in 
medical applications, 3D printing.
    Again, the challenge is to get the word out across the 
Nation in effective ways, so we try to do that communication as 
best we can. And there are some interesting things that we have 
been learning in the process, both in terms of the technology 
of how you do the inspections and the similarity of problems 
for making parts for a jet engine versus parts that would be 
embedded in a body, and then some of the more subtle things, 
and this is really cross-cutting more the medical.
    What you heard in some of the testimony from Neal was the 
models that were made. So a major use of the technique of that 
manufacturing is for tooling, to be able to do tooling to adopt 
the surgery and to very carefully and precisely guide the 
surgery tools, et cetera.
    And then there is something interesting to all of these. 
One of the key pieces of technology that has come along with 3D 
printing was 3D scanning. And as I was engaged with a 
conversation with a research scientist in the medical 
community. Obviously when you have got a piece of bone missing 
maybe from a car accident, maybe it is a wounded soldier, and 
you want to do a 3D scan so that that implant perfectly fits, 
and this is where that bioreabsorbable piece comes into play. 
As the bone grows back, the body absorbs the implant, then you 
don't have to remove the metal implant, which is really clever.
    And they pointed out something, which was sort of an ``ah-
ha, boy, I should have seen this one coming.'' You want it to 
match, but you also want it to match this side of the head, 
because if you make this one a different shape than this shape, 
you have cursed that person for life.
    So there are all these different subtleties that we are 
communicating with the medical community. The explosive use of 
the technology is incredible. About one-third of the patents as 
of 2 years ago were in the medical applications of 3D printing.
    Ms. Schakowsky. Thank you so much. Thanks all of you.
    Mr. Burgess. The gentlelady yields back and the Chair 
thanks the gentlelady.
    I will recognize myself for redirection.
    I mean, you all brought it up, so it is going to come up 
when we go back home. Our schools are going to ask us: Hey, how 
do we get that for our students? So any of you want to provide 
some direction and advice to the members of the subcommittee?
    Mr. Morris. We have initiated 2 years ago a process with 
DonorsChoose, where donors can go to the Web site and 
contribute funds and allocate it for 3D printers in their 
schools or wherever, maybe a Boy Scout troop, Girl Scout troop, 
et cetera. So that is one mechanism for the public to partner 
in and put their skin in the game, if you will, to get the 
printers in the hands of the youth of the United States.
    I wanted to also quickly point out another really 
outstanding benchmarking of using additive manufacturing 3D 
printing for education is U.S. FIRST in the FIRST Robotics 
Competitions. Industry has been stepping up in great fashion to 
tutor and mentor the teams in the FIRST Robotics Competitions. 
I personally got involved in this attending two of their annual 
nationwide and global competitions. And we actually set up, we 
took some 3D printers, and we were doing hospital repair of 
broken parts in the competition, which was kind of cool.
    But that is another excellent model of STEM education, 
training in all of the aspects of design, including business 
with this technology, and partnering with industry to put up 
the deep engineering talent working and mentor the students 
outside school.
    Mr. Burgess. Very well.
    Mr. Orringer, I just wanted to ask you--well, you hear the 
bells go off. So we had a vote series called. Fortunately, it 
looks like we have made it through our hearing, and the good 
news for you is we have got a long series of votes, so it would 
keep us away for a while. So I think we will be able to adjourn 
before we go and vote.
    This subcommittee does not deal with the FDA, but our full 
committee does. And it just strikes me as we are talking about 
things like the templates of the lattice to build new body 
parts, this really is cutting-edge stuff. And we have a 
regulatory agency. Yes, They are equipped to tell someone how 
to go about getting a drug approved, they are equipped to tell 
someone how to go about getting a device approved, but 
something that sort of blurs the lines between those two areas 
may be more difficult.
    So have you had any experience, positive or negative, in 
dealing with the regulatory side of this on your medical side?
    Mr. Orringer. We are actually certified to build Class I, 
II, and III devices in our facility in Colorado, which is where 
our medical modeling facility is placed. And our folks there 
tell me it is a difficult process, it is difficult to be 
certified to be able to manufacture these kinds of components. 
You probably want that, though, to ensure that we maintain the 
appropriate levels of quality, safety, et cetera.
    Mr. Burgess. Yes. I want to interrupt you just for a 
second. Yes, you want it, but I want the regulatory agency to 
be able to provide you direction. What are the steps that I 
have got to go through? What is the pathway to getting this 
completed?
    And then the complaint that I will hear frequently is 
somehow the rules all change along the way and then I have got 
to go back and recertify or reapply.
    Yes, I want the devices to be safe. I don't want to hear 
about things having to be recalled or removed. It is one thing 
with an automobile, it is a dreadful thing if it is in a child. 
But we also want to lay out the regulatory pathway for you so 
that you know and it is predictable, and you know the steps and 
the sequence, and you know that when you complete the tasks, 
that is the end of the process, that it is not an endless back 
and forth, oh, we are going to need more stuff, we didn't ask 
you this, we are going to need for you to go back and do this 
for a couple of years and come back and see us.
    So when I am saying that this is your subcommittee too, I 
mean, that is the sort of feedback that I need to hear, the 
committee needs to hear, our staff needs to hear. We are 
anxious to have this be a continuing dialogue, because this is 
the sort of stuff that is over the horizon, but it is really 
pretty bright. When I talk to medical students, the kids in 
medical school today are going to have tools that no generation 
of doctors has ever known.
    Mr. Orringer. That is right.
    Mr. Burgess. That is pretty powerful.
    Mr. Orringer. Yes. I appreciate that. We will certainly 
keep you posted. I think it has already been discussed.
    A really huge barrier to entry is just that certification 
process. Five to 10 years just to introduce a new material, new 
process into the system. If we can figure out a way to 
accelerate that process, not only on the aerospace and defense 
side, but in all of our industries. And I think the FDA, as 
well as the Department of Defense, have a lot to contribute to 
this area, and we would definitely appreciate your help in 
making that dialogue happen.
    Mr. Burgess. Well, thank you.
    And, again, thanks to all of you on the panel. It has been 
a very informative morning.
    Seeing that there are no further members wishing to ask 
questions, I will thank our witnesses for being here today.
    Before we conclude, I would like to submit the following 
documents for the record, by unanimous consent. A statement for 
the record from the American Chemistry Council. Without 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. I would also like to submit a letter from the 
Specialty Equipment Market Association. Without objection, so 
ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
that they have 10 business days to submit additional questions 
for the record. I ask the witnesses to submit their responses 
to those questions within 10 business days upon the receipt of 
those questions.
    And without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:37 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    U.S. manufacturing is recovering slowly from the recent 
downturn. Automakers in Michigan have weathered the storm and 
are making a comeback, but the next manufacturing revolution is 
yet to come.
    As Washington overregulation and uncertainty puts downward 
pressure on American manufacturing, disruptive technologies are 
quietly pushing the tide in the other direction.
    With the Disrupter Series, we seek to highlight what the 
private sector is doing despite the red tape-and additive 
manufacturing is an excellent example of this.
    Increasingly, the modern factory is becoming digitized. 
More than ever, part designs, assembly processes and the supply 
chain as a whole are woven with digital threads that enable 
companies to closely manage and improve their work.
    Building things is the American way, but software is the 
wave of the future. When it comes to manufacturing, thanks in 
part to the development of 3D printing, we can say the U.S. has 
an app for that.
    Advancements like 3D printing must be allowed to flourish 
and must be supported in order to bring American builders from 
innovative entrepreneurship to world leadership.
    While I am pleased to hear about the exciting developments 
in 3D printing in manufacturing, I am also excited about the 
potentially life-saving benefits 3D printing has brought to the 
healthcare sector.
    Many of you know of this committee's 21st Century Cures 
initiative, and 3D printing makes important contributions to 
the development of vital cures efforts. Although in its 
experimental stages, bioprinting promises potentially 
revolutionary advancements and is already being used by 
scientists to produce human organ tissue, which greatly 
improves the quality of pharmaceutical testing.
    From rapid and accurate prototype models to surgical guides 
to finished parts and products, we are just beginning to see 
the impact 3D printing will have.
    I look forward to this exciting discussion and thank the 
witnesses for their participation.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Mr. Orringer did not answer submitted questions for the 
record by the time of printing.]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
